FILED
NOV 1 9 2019

06 0

OFFICE OF THE CLERK
SUPREME COURT I IS

In The

Supreme Court of the United States
JENN-CHING LUO,
Petitioner,
v.
LOWE’S HOME CENTERS, LLC
JAMES R. WALTERS
CHRIS S. ERNEST
Respondents.
On Petition for Writ of Certiorari
to the Superior Court of Pennsylvania
PETITION FOR WRIT OF CERTIORARI
Jenn-Ching Luo, Pro se
PO Box 261
Birchrunville, PA 19421
(516)3430088
E-maiP jennchingluo@gmail.com

(i)
QUESTION PRESENTED
After the appeal had been briefed and submitted
to a three-judge panel for a review, Pennsylvania
Superior Court refused to review the appeal and
dismissed it by determining appellant's argument
failed to conform to rule requirements. However, the
Court's determination is not defects in rule
compliance, but disagreement about pleading which
offends conscience of the society, for an example, the
court dismissed Petitioner's appeal because judge
disagrees the number of argument points.
Further, Pennsylvania Superior Court's conduct
also differs from other appellate courts. When an
appellant's brief is found defective, other appellate
courts do not dismiss the appeal, but give appellant
an opportunity to cure the deficiencies.
This petition
questions^

presents

the

following

two

1. Under the protection of due process of law,
whether Pennsylvania Superior Court can dismiss
Petitioner's appeal by the reasons that (l) the panel
disagreed the number of argument points, (2)
Petitioner did not comply with two inapplicable
conditional rules, and (3) the panel disagreed 4 of 53
citations of legal authority?
2. Whether Pennsylvania Superior Court could
dismiss the appeal without giving Petitioner an
opportunity to cure his defective brief?

(ii)

PARTIES TO THE PROCEEDING
Petitioner, JENN-CHING LUO, was the only
appellant in the Superior Court of Pennsylvania. The
three respondents were appellees in the Superior
Court of Pennsylvania: Lowe's Home Centers, LLC,
James R. Walters, Chris S. Ernest.

(iii)
TABLE OF CONTENTS
Opinion below
1
Jurisdiction ...
2
Constitutional and statutory provisions involved .. 2
Introduction................................................................. 3
Statement of the case................................................
7
Reasons for granting the petition............................ 37
A. Pennsylvania Superior Court's judgment
in dismissing the appeal offends interests
of society, and conflicts with this Court's
published opinion. This Court shall fulfill
it's promise of reviewing the Pennsylvania
Superior Court's judgment and establishes
a guideline to prevent appellate courts
from arbitrarily dismissing an appeal........ 37
B. This petition presents a perfect vehicle to
resolve appellate court's split on the
ruling when appellant's brief is found
defective............................................................ 39
C. The appeal has not been reviewed on the
merits. Pennsylvania Superior Court's
conduct conflicts with a tradition of this
Court that mere technicalities should
not stand in the way of deciding a case
on the merits ................................................... 41
Conclusion..............................................................
43
Appendix A — Pennsylvania Supreme Court
order, denying reconsideration
(July 25, 2019)...........................
la
Appendix B — Pennsylvania Supreme Court
order, denying petition for
allowance of appeal
2a
(June 18, 2019)..........................

(iv)
Appendix C — Pennsylvania Superior Court
order Denying reconsideration
(December 28, 2018).................
Appendix D — Pennsylvania Superior Court
order dismissing this appeal
(November 2, 2018)..................
Appendix E — Trial Court order, appeal from
(December 27, 2017).................
Appendix F — Trial Court order, appeal from
(January 3, 2017).....................
Appendix G — Trial court order, appeal from
(September 7, 2016).................
Appendix H — Trial Court order, appeal from
(August 8, 2016)........................
Appendix I — Trial Court order, appeal from
(January 11, 2016) ...................
Appendix J — Trial Court order, appeal from
(October 13, 2015)....................
Appendix K — Award of Arbitrator

(July 12, 2017).......................

3a

4a
12a
14a
16a
18a
23a
25a
27a

(V)

TABLE OF AUTHORITIES
Cases:

Page

Albert Einstein Medical Center v. Forman
212 Pa. Super. 450, 452,
243 A.2d 181 (1968)

29

Allwein v. Donegal Mutual Ins. Co.,
448 Pa. Super. 364, 379,
671 A.2d 744, 752 (1996)

11

Baldwin v. Hale, 68 U.S. (I Wall.)
223, 233 (1864)

7

Bruno v. Erie Insurance Co.
106 A.3d 48, 70 (Pa. 2014)

9

Burstein v. Prudential Prop, and Cas. Ins. Co.,
809 A.2d 204, 207 (Pa. 2002)

8

Central Penn National Bank v. Williams,
362 Pa. Super. 229,
523 A.2d 1166, 1168-1169 (1987)
Conley v. Gibson, 355 U.S. 41,48 (1957)

33,34
40

Foman v. Davis, 371 U.S. 178, 182 (1962)

40,43

Frow v. De La Vega, 82 U.S. 552 (1872)

31,32

Hagar v. Reclamation District,
111 U. S. 701, 708 (1884)

14

(Vi)

Cases—Continued:

Page

Johnson v. White Septa Septa,
2266 CD 2007, (Pa. Commwlth. 2009)

12,13

Kessler v. Eldred, 206 U.S. 285 (1907)

29

Leman v. Krentler-Arnold Hinge Last Co.,
284 U.S. 448, 451 (1932)

12

Louisville & Nashville R. Co. v.
Western Union Tel. Co., 250 U.S. 363 (1919)

12

Mee v. Safeco Ins. Co. of America,
908 A.2d 344, 347 (Pa. Super. 2006)

10

Reshard v. McQueen,
562 So. 2D 811 (Fla. 1st DCA 1990)

29,30

Rochin v. California,
342 U.S. 165, 172 (1952)

6,37

Rubber Tire Wheel Co. v. Goodyear Co.
232 U.S. 413 (1914)

12

Torres v. Oakland Scavenger Co.,
487 U.S. 312, 316 (1988)

41

Wells Fargo Bank, N.A. v. Vanmeter,
2013 PA Super 115, 67 A.3d 14 (2013)

33

Westmoreland v. Westmoreland Intermediate,
939 A.2d 855, 865-866 (Pa. 2007)

8

(vii)
Cases—Continued:

Page

Wilkinson v. Austin,
545 U.S. 209, 221 (2005)

5

W.R. Grace & Co. v. Local Union 759,
Int'l Union of United Rubber Workers,
461 U.S. 757, 766,
103 S. Ct. 2177, 76 L. Ed. 2D 298 (1983)

8

United States v. Haymond,
139 S. Ct. 2369, 2373 (2019)

Constitutional Provisions:

11

Page

U.S. Const. Amend. VII

2

U.S. Const. Amend. XIV

2

PA. Const. Art. V §9

Statutes:
28 U.S.C. §1257(a)
42 Pa.C.S. §7304(d)
Pennsylvania state Unfair Trade
Practices and Consumer Protection Law
(“UTPCPL”)

2,5

Page
2

10,13

3

(viii)
Rules^

Page

Pa.R.C.P. 402(a)(2)(i)

25

Pa.R.C.P. 440(b)

25

Pa.R.C.P. 1019(g)

22,24,26

Pa.R.C.P. 1032(a)

10

Pa.R.A.P. 2117(a)(4)

21-26

Pa.R.A.P. 2119(a)

19,27

Pa.R.A.P. 2119(c)

15,21-23

Pa.RA.P. 2119(d)

15,21-23

Pa.RA.P. 2132

23

Miscellaneous:

Page

47 Am. Jur. 2d Judgments §1175

30

1

In The Supreme Court of the United States
No.

JENN-CHING LUO,
Petitioner,
v.
LOWE'S HOME CENTERS, LLC
JAMES R. WALTERS
CHRIS S. ERNEST
Respondents.
On Petition for Writ of Certiorari
to the Superior Court of Pennsylvania
PETITION FOR WRIT OF CERTIORARI
Petitioner JENN-CHING LUO respectfully
petitions this Court for a Writ of Certiorari to review
the judgment of the Superior Court of Pennsylvania.
OPINION BELOW
The Pennsylvania Supreme Court per curiam
order denying application for reconsideration is
reprinted at (App. Infra, la); The Pennsylvania
Supreme Court per curiam order denying Petition for
allowance of appeal from the order of Superior Court
is reprinted at (App. Infra, 2a); The Pennsylvania

2

Superior Court per curiam order denying panel
rehearing or rehearing en banc is reprinted at (App.
Infra, 3a); The non-precedential decision of the
Pennsylvania Superior Court that dismissed the
appeal is in the Appendix (App. infra, 4a-lla); The
opinion of the Common Pleas, Chester County,
Pennsylvania that confirmed arbitration award is
reprinted at (App. infra, 12a-13a); The arbitration
award is reprinted at (App. Infra, 27a_30a)
JURISDICTION
On July 25, 2019, the Pennsylvania Supreme
Court denied application for reconsideration. This
jurisdiction of this Court is invoked under under 28
U.S.C. §1257(a).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Seventh Amendment to the United States
Constitution provides in pertinent part:
In Suits at common law, where the value in
controversy shall exceed twenty dollars, the
right of trial by jury shall be preserved,
The Fourteenth Amendment to the United States
Constitution provides in pertinent part:
nor shall any State deprive any person of life,
liberty, or property, without due process of
law, nor deny to any person within its
jurisdiction the equal protection of the laws.
The Pennsylvania Constitution Article 5 Section

3

9 provides in pertinent part:
there shall also be a right of appeal from a
court of record or from an administrative
agency to a court of record or to an appellate
court,
INTRODUCTION
1. This case was arisen from petitioner and
respondent Lowe's had a contract for installing roof,
skylights, and gutters. Lowe's had respondent
Walters to perform the contract on June 3, 2014.
Before the installation of new roof shingles was
complete, around 2:20 PM it rained. Walters did not
cover the roof and rainwater intruded the house to
cause damages. Lowe's sent respondent Ernest for
estimating the damages. Ernest, not a witness, came
to petitioner's home to argue the occurrence, even
refusing to enter attic to see water damages and also
refusing to see water damages in wall cavities. What
Ernest argued was easily proved false. After Ernest's
version was proved false, Lowe's argued another
versions. Lowe's contended a total of four versions of
occurrence.
2. Petitioner filed this case in the Court of
Common Pleas, Chester County, Pennsylvania (“the
trial court”), and asserted three claims against
defendants Lowe's, Ernest, and Walters, including a
state law claim under Pennsylvania state Unfair
Trade Practices and Consumer Protection Law
(“UTPCPL”), and two common law claims under
negligence.

4
3. Petitioner demanded a jury trial. The contract
for the home improvement had an arbitration clause
that the claims “will be determined by a neutral
arbitrator and not a judge or jury.” After a long
series of motions, the trial court granted each
defendant's motion to compel arbitration.
4. However, the long series of the trial court's
interlocutory rulings have raised the following five
questions'(1) Whether the trial court erred in denying
petitioner's right to jury trial by compelling
petitioner to arbitration?
(2) Whether the injunction order against Walters,
which strikes Walters' every filing and ceases
Walters appearing in this case, is continuously
and operated on Walters?
(3) Whether Lowe's and Ernest could stay the
arbitration by themselves without a due process
of law?
(4) Whether Walters' petition to open default
judgment should be granted?
(5) Whether the arbitration award should be
vacated?
The trial court's rulings clearly conflicted with the
laws. For an example, each defendant had moved the
trial court to dismiss the complaint. Each defendant
already abandoned the arbitration clause, e.g.,
“claims will be determined by a neutral arbitrator
and not a judge or jury’. After defendants' motions to
dismiss were not granted, the doctrine of waiver and
estoppel barred each defendant from enforcing the
arbitration clause. How could the trial court grant

5

defendants' motions to arbitration? The trial court
completely leaned one side to favor the defendants,
regardless the laws. Eventually, from the first to the
last order, the trial court demonstrated it played a
“decision-fixing’ game, using the court's power to fix
the case to a result the trial court judge designed. In
the Section of Statement of the Case, we can see it is
100% certain the trial court judgment shall be
vacated.
5. Petitioner appealed the trial court's judgment
to Pennsylvania Superior Court. The appeal was
made as a right, which is granted in Pennsylvania
Constitution Article 5 Section 9. In this appeal,
Petitioner has a liberty interest to pursue legal
guarantee of Pennsylvania Constitution. See
Wilkinson v. Austin. 545 U.S. 209, 221 (2005) (“A
liberty interest may arise from the Constitution
itself, by reason of guarantees implicit in the word
‘liberty,’... or it may arise from an expectation or
interest created by state laws or policies . . . .”)
Further, this case also involved value and use of
petitioner's property. Petitioner also has a property
interest in this appeal.
6. The notice of appeal includes 7 orders on
appeal. Due to page limit, Petitioner abandoned one
order. After the appeal had been briefed and was
submitted to a three-judge panel for review,
Pennsylvania Superior Court refused to review the
appeal, and dismissed the appeal by determining
Appellant Brief is defective, failing to conform to rule
requirements. However, the Superior Court's
determination is not a defect in rule compliance, but

6
disagreement about pleading. The Superior Court
dismissed the appeal by three disagreements:
(1) The three-judge panel disagreed the number of
argument points!
(2) Petitioner argument did not conform to two
inapplicable conditional rules!
(3) The three-judge panel disagreed 4 of 53 citations
of legal authority.
No one legal professional could believe an appeal
could be dismissed by any of the above reasons.
Eventually, that never happened, except in this case.
People may wonder why Petitioner was treated so
grossly
unjust
and
unfairly.
Apparently,
Pennsylvania Superior Court's conduct offends
tradition and conscience of the legal community,
raising a federal question of due process of law. E.g.,
Rochin v. California. 342 U.S. 165, 172 (1952). This
matter is a good example for people to see that, in
Pennsylvania, justice does not have the meaning of
justice, but is a service for big guy.
7. Further, Pennsylvania Superior Court's
conduct also differs from other appellate courts.
Other appellate courts do not dismiss an appeal
when appellant's brief is found defective, but reject
defective brief, and order appellant to refile a proper
brief in a specified time, and appeal is not dismissed
unless appellant fails to do so. However, the Superior
Court dismissed the appeal without giving Petitioner
an opportunity to cure deficiencies. Pennsylvania
Superior Court’s decision differs from other appellate
courts. This Court should resolve this conflicts.

7
8. This Court's review is needed to once and for
all clearly and unequivocally establish a guideline to
prevent an appellate court from arbitrarily
dismissing an appeal, and to resolve conflicts
between appellate courts.
STATEMENT OF THE CASE
9. Pennsylvania Superior Court did not review
the appeal on the merits. However, from the facts
and circumstances, it is 100% certain that the trial
court judgment shall be vacated. See below.
The arbitration award shall be vacated, and the trial
court judgment is vacated as moot
10. The arbitration has several procedural
irregularity, which are grounds to vacate the award.
However, the face of the award is enough to vacate
the award. In this petition, we just look at the face of
the award. For example, the award determines
“Claimant's claim against the Respondent
Lowe's Home Centers, LLC for breach of
contract is AWARDED in the amount of
$2,034.07. ” (App. 27a-28a)
That determines a breach of contract claim.
However, the second amended complaint does not
have a breach of contract claim, which was never
argued and never heard. How the arbitrator did his
job is a question mark. Under procedural due
process, the award cannot determine any claim that
was never heard. See Baldwin v. Hale. 68 U.S. (I
Wall.) 223, 233 (1864) ("Parties whose rights are to

8
be affected are entitled to be heard.''). Procedural due
process is a public policy. See Burstein v. Prudential
Prop, and Cas. Ins. Co.. 809 A.2d 204, 207 (Pa. 2002)
(“Public policy is to be ascertained by reference to
the laws and legal precedents and not from general
considerations of supposed public interest.'1). The
award violates a public policy. This court has
recognized that courts should not enforce an
arbitration award that contravenes public policy. See
W.R. Grace & Co. v. Local Union 759. Int'l Union of
United Rubber Workers. 461 U.S. 757, 766, 103 S.
Ct. 2177, 76 L. Ed. 2D 298 (1983); Also see
Westmoreland v. Westmoreland Intermediate. 939
A.2d 855, 865-866 (Pa. 2007) (“[A] court should not
enforce a grievance arbitration award that
contravenes public policy.’) The award must be
vacated because of contravening a public policy.
11. The face of the award also contravenes
another public policy. For example, the award has
the determination:
“The amount awarded against Respondents
Lowes Home Centers, LLC (e.g., under a
breach of contract claim1) and James R.
Walters (e.g., under a negligence claim) are the
same damages for the same loss, and I
consequently find that these two Respondents
are jointly and severally liable for the amount
awarded.”{App. 28a)
The award determined the damage in the negligence
The award determined a non-existing breach of contract claim. Even if
we assume breach of contract claim is valid, the award contravenes a
public policy.

9
claim, arising from performing the contract, is the
same damage from a breach of contract. Such
determination conflicts with a Pennsylvania
Supreme Court's holding, a public policy. See Bruno
v. Erie Insurance Co.. 106 A.3d 48, 70 (Pa. 2014)
(“[A] negligence claim based on the actions of a
contracting party in performing contractual
obligations is not viewed as an action on the
underlying contract itself”). The award must be
vacated, because it contravenes a public policy.
12. Clearly, the award contravenes two public
policies, and must be vacated. It is 100% certain the
trial court order (App. 12a), confirming the award,
shall be vacated. However, Pennsylvania Superior
Court were unwilling to vacate the trial court
judgment.
The trial court erred in denying petitioner's right to
jury trial, and the trial court judgment shall be
vacated
13. The trial court issued three orders, e.g., (App.
25a), (App. 23a), and (App. 14a), granting Lowe's,
Ernest, and Walters' motions to compel Petitioner to
arbitration. Those orders are absolutely erroneous
because the arbitration clause is inapplicable by any
of the following reasons:
(a) Each defendant had moved the trial court to
dismiss the complaint, and abandoned the
arbitration clause, “claims will be determined by
a neutral arbitrator and not a judge or jury’.
After defendants' motions to dismiss were not

10
granted, the doctrine of waiver and estoppel
defendants from enforcing the
barred
arbitration clause!
(b) Defendants also failed to assert the affirmative
defense of arbitration. For example, Ernest did
not assert affirmative defense of arbitration in
his preliminary objection (e.g., pre-answer
motion), which waived the affirmative defense.
See Pa.R.C.P. 1032(a); Ernest also did not assert
affirmative defense of arbitration in his Answer,
which waived the affirmative defense. See
Pa.R.C.P. 1032(a);
(c) The trial court itself also made the arbitration
clause inapplicable. For example, in Ernest's
motion for judgment on pleadings, the trial court
agreed to determine and determined the claims
against Ernest. Therefore, the trial court could
not grant Ernest's motion to compel arbitration
because the trial court agreed to determine the
claims against Ernest;
(d) Pursuant to 42 Pa.C.S. §7304(d) (“If the
application for an order to proceed with
arbitration is made in such action or proceeding
and is granted, the court order to proceed with
arbitration shall include a stay of the action or
proceeding!’), application to compel arbitration
should include a request to stay the judicial
proceeding and the court should stay the judicial
proceeding for the pending arbitration. However,
each defendant's application failed to conform to
42 Pa.C.S. §7304(d). The trial court could not
grant an application which fails to conform to the
laws. See Mee v. Safeco Ins. Co. of America. 908
A.2d 344, 347 (Pa. Super. 2006).

11
There are so many reasons that the arbitration
clause is inapplicable, and the trial court should not
compel Petitioner to arbitration. Petitioner's right to
jury trial was violated. The constitutional right to a
jury trial is a “promise that stands as one of the
Constitution’s most vital protections against
arbitrary government.” See United States v.
Havmond. 139 S. Ct. 2369, 2373 (2019). It is 100%
certain that the trial court order (App. 12a),
confirming arbitration award, shall be vacated
because Petitioner's right to jury trial was violated.
14. Eventually, defendants did not contest the
issue of jury trial, except Ernest contended that
Petitioner has waived his right to jury trial when
Petitioner signed the contract that has the
arbitration clause. Such contention has been rejected
by the court. In Allwein v. Donegal Mutual Ins. Co..
448 Pa. Super. 364, 379, 671 A.2d 744, 752 (1996),
appeal denied, 546 Pa. 660, 685 A.2d 541 (1996), the
court noted that although the courts do not have a
license to rewrite the Lowe's contract, Lowe's does
not have a license to rewrite statutes.
15. The facts and circumstances are clear. It is
100% certain that the trial court order (App. 12a),
which confirmed the arbitration award, should be
vacated, because Petitioner's right to jury trial was
violated. However, Pennsylvania Superior Court was
unwilling to vacate the trial court judgment.
The trial court order, granting Walters' petition to
open default judgment, should be vacated

12
16. It should be erroneous for the trial court to
grant Walters' petition to open the default judgment.
(App. 18a).
17. First, on January 11, 2016, the trial court
issued the order “upon consideration of Plaintiffs
Motion to Strike Defendant James R. Walters' Every
filing and to Cease Walters Appearing in this Case,
it is hereby ORDERED and DECRED that the
Motion is GRANTED.” That is an injunction. The
injunction order is continuously and operated on
Walters. See Leman v. Krentler-Amold Hinge Last
Co.. 284 U.S. 448, 451 (1932) (“It was a decree which
operated continuously and perpetually upon the
respondent in relation to the prohibited conduct.’).
Walters was “ceased appearing’. Filing the petition
to open default judgment was a contempt of court
order. Id @452; Rubber Tire Wheel Co. v. Goodyear
Co.. 232 U.S. 413 (1914); Louisville & Nashville R.
Co. v. Western Union Tel. Co.. 250 U.S. 363 (1919).
Further, the injunction order also strikes Walters'
petition. Clearly, it is 100% certain that the trial
court order (App. 18a), granting Walters' petition to
open the default judgment, shall be vacated.
However, Pennsylvania Superior Court refused to
review the appeal.
18. Second, the trial court order is a condensed
version of Walters' petition. In Petitioner's brief to
Pennsylvania Superior Court, Petitioner raised
issues how the trial court erred in granting Walters'
petition. Walters did not contest any of those issues,
except citing Johnson v. White Septa Septa. 2266 CD
2007, (Pa. Commwlth. 2009) to contend trial court's

13
errors were harmless because “the outcome here is
the same as it would have been had there been a
default judgmentThat is clearly an erroneous
contention. In Johnson, the reason why the court
held “harmless is “As Defendants stipulated to
liability prior to trial’. That did not happen in this
case. Further, if the trial court did not open the
default judgment, damages will be assessed by jury,
not by arbitrator. Walters failed to prove the trial
court's error is harmless. Facts and circumstances
are clear. After a review of the appeal on the merit,
the trial court order (App. 18a) should be vacated.
However, Pennsylvania Superior Court refused to
review the appeal.
The trial court order, denying Petitioner's motion to
enter default judgment against Lowe's and Ernest,
should be reversed
19. Pursuant to 42 Pa.C.S. §7304(d), Lowe's and
Ernest should request the trial court to stay judicial
proceeding for pending arbitration. However, Lowe's
and Ernest failed to do it.
20. The arbitration was effectively controlled in
Lowe's hands. According to agreement term, Lowe's
needed to send application to American Arbitration
Association and needed to pay the fee to advance the
arbitration. However, after the trial court granted
Lowe's and Ernest's motion to arbitration, Lowe's
and Ernest refused to arbitration and decided to stay
the arbitration by themselves. Most terribly, the trial
court just let Lowe's and Ernest stay the arbitration
as long as they wished. Lowe's and Ernest stayed the

14
arbitration
Petitioner.

for

15

months,

which

prejudiced

21. The point is that Lowe's and Ernest' selfdetermination is not a “form of law”. The delayed
arbitration was not “due process of laW’ because of
failing to follow the forms of law. See Hagar v.
Reclamation District. Ill U. S. 701, 708 (1884)
('"[B]y 'due process' is meant one which, following the
forms of law, is appropriate to the case, and just to
the parties to be affected.”) Further, right to
procedural due process entitles Petitioner to be given
a notice and an opportunity to be heard before the
arbitration was stayed. Lowe's and Ernest's selfdetermination to stay the arbitration also violated
Petitioner's right to procedural due process.
22. Because of failing to meet the essential
elements of due process of law, the delayed
arbitration is invalid, and should be banned and is
inoperative.
23. Further, the trial court had surrendered its
authority to determine the claims against Lowe's
and Ernest. After the delayed arbitration was
banned, there is no other forum available to decide
the claims against Lowe's and Ernest. Default
judgment should be the only available remedy.
Petitioner filed a motion to enter default judgment
against Lowe's and Ernest. The trial court denied
Petitioner's motion without considering the issue of
“due process of law”. (App. 16a). Facts and
circumstances are clear. After a review on the merit,
the trial court order (App. 16a), which denied

15
Petitioner' motion to enter default judgment against
Lowe's and Ernest, should be reversed. However,
Pennsylvania Superior Court refused to review the
appeal.
Pennsylvania Superior Court refused to review and
dismissed the appeal
24. Petitioner appealed the trial court judgment
to Pennsylvania Superior Court. The body of
appellant brief has 87 pages. As shown above (If 1023, pp. 7-15), the trial court judgment is not possibly
to be affirmed.
25. After the appeal had been briefed and was
submitted to a three-judge panel for review,
Pennsylvania Superior Court refused to review the
appeal, and dismissed the appeal by determining
appellant's argument is defective, failing to conform
to three rule requirements. (App. 8a-9a). However,
the Superior Court's determination is not a defect,
but is disagreement about pleading. The Superior
Court dismissed the appeal by three disagreements:
(1) Appellant brief presents five points to be argued,
and Pennsylvania Superior Court disagreed the
number of argument points! (App. 9a-10a)
(2) Petitioner's argument did not apply the two
conditional rules Pa.R.A.P. 2119(c)-(d) to cite the
record. The point is Pa.R.A.P. 2119(c)-(d) are
inapplicable2! (App. 10a)
(3) Appellant's argument cites 53 legal authorities
2 It will be shown later that the two conditional rules Pa.R.A.P.
2119(c)-(d) are inapplicable.

16
in five points, and the Superior Court disagreed
4 of 53 legal authorities. (App. 10a-11a)
Pennsylvania Superior Court's decision should knock
rational legal professionals' conscience off. It never
happened before that an appeal was dismissed by
any of the above reasons. Especially, since 1789
when the judicial branch began to take shape, it has
been 230 year. No one appellate court dismisses an
appeal by any of the above reasons, except in this
case. People should wonder why Pennsylvania
Superior Court treated Petitioner so grossly unjust
and unfairly.
26. Mostly terribly, we are going to see, below,
that Pennsylvania Superior Court's disagreements
are completely unreasonable and even nonsense.
Pennsylvania Superior Court dismissed the appeal
because three-judge panel disagreed the number of
argument points
27. Petitioner presents the following five points
to be argued:
POINT 1. The January 11, 2016 injunction order
barred Walters from filing a motion to
compel Luo to arbitration. Walters'
participation and contribution to the
arbitration invalidated the award. The
trial court judgment that confirmed the
award was mooted. Further, the
injunction order also barred Walters
from filing a petition to open default
judgment. The default judgment against

17
Walters should not be opened.
POINT 2. The trial court erred in granting
Walters' petition to open default
judgment.
(A) the first element "promptly filed a
petition to open"
(B) the second element "provided a
reasonable excuse or explanation
for failing to file a responsive
pleading"
(C) the third element "pleaded a
meritorious defense to the
allegations contained in the
complaint"
POINT 3. The delayed arbitration failed to meet
constitutional requirement, inoperative,
and should be banned. There was no
other forum available to decide the
claims. Default judgment against
Lowe's and Ernest is the only available
remedy.
POINT 4. Luo was not entitled to be compelled to
arbitration. The arbitration deprived
Luo of the right to jury trial, equal
protection, and due process. The
arbitration award should be vacated.
(A) Defendants moved the trial court to
dismiss the complaint and violated
the arbitration clause
(B) Ernest abandoned arbitration
clause under the civil rules
(C) The trial court made the arbitration

18
clause unenforceable
(D) Defendants' applications to compel
arbitration were not in conformity
with the laws, and the trial court
has no authority to grant the
applications
(E) The trial court orders that
compelled Luo to arbitration were
defective and invalid
POINT 5. The Trial court erred in denying Luo's
petition to vacate the arbitration award.
(A) The arbitrator acted in bad faith
and corrupted, not impartial
(B) The arbitrator ignored the law
(C) The arbitrator did not read the
second amended complaint to find
causes of action, but arbitrarily
decided the arbitration
(D) To favor the three defense
attorneys, the arbitrator did not
proceed the hearing according to the
agreement but changed the hearing
place to a location that was
convenient for the three defense
attorneys
(E) The arbitration award contravened
public policy and must be vacated
Pennsylvania Superior Court did not review the
arguments on the merit, but dismissed the appeal
because the three-judge panel disagreed the number
of five points. It never happened before that an
appeal was dismissed because judge disagrees the
number of argument points. Why did Pennsylvania

19
Superior Court treat Petitioner so grossly unjust and
unfairly?
28. Most terribly, Pennsylvania Superior Court's
disagreement is completely unreasonable and even
nonsense. The three-judge panel's comment is copied
from (App. 9a-10a) into the following:
Our review of appellant's brief reveals
substantial and numerous violations of the
appellate rules. Although his brief contains an
argument section, it is not divided "into as
many parts as there are questions to be
argued." Pa.R.A.P. 2119(a). Appellant raises 23
issues on appeal, but only divides the
argument portion of his brief into dive sections.
While some of these sections include
subsections, they are repetitive of previously
argued issues and do not correspond with the
issues raised on appeal.
The Superior Court's comments to dismiss the
appeal are completely unreasonable:
-1- The Pa.R.A.P. 2119(a) is clear that ("the
argument shall be divided into as many
parts as there are questions to be argued"),
not"divided into as many parts as the issues
on appeal". Further, issues on appeal could
be abandoned, and it is unnecessary to
present all the 23 issues in the argument.
Especially, it never happened before that an
appeal was dismissed because appellant
waives an issue on appeal. Pennsylvania
Superior Court's comment is unintelligent;
-2- It is erroneous for the three-judge panel to

20

write "/wjhile some of these sections include
subsections, they are repetitive ofpreviously
arguedFirst, it is factual incorrect.
Please verify the five argument points,
above, to see if there is an argument that is
repetitive of any other argument. The threejudge panel's comment is factual incorrect;
Second, even if we assume there is an
argument that is repetitive of other. It never
happened before that an appeal was
dismissed because an argument is argued
twice. Pennsylvania Superior Court's
comment is unintelligent;
-3- It is also erroneous for Pennsylvania
Superior Court to write that "[wjhile some of
these sections include subsections, they.......
do not correspond with the issues raised on
appeal." First, it is factual incorrect. Which
issue, presented in the argument, was not
raised on appeal? Pennsylvania Superior
Court never found one and three Defendants
also never found one. The three-judge panel's
comment is factual incorrect; Second, even if
we assume appellant's argument includes an
issue, which is not raised on appeal, it never
happened before that an appeal was
dismissed because appellant presented an
issue which is not on appeal.
Pennsylvania Superior Court's disagreement is
unintelligent. What we have seen is that
Pennsylvania Superior Court dismissed the appeal
by three nonsensical comments. People should
wonder why Pennsylvania Superior Court arbitrarily
dismissed Petitioner's appeal and treated Petitioner

21
so grossly unjust and unfairly.
Pennsylvania Superior Court dismissed the appeal
because appellant's argument did not conform to
Pa.R.A.P. 2119(c)-(d) to cite the record. However,
Pa.R.A.P. 2119(c)-(d) are inapplicable.
29. In Pennsylvania Rules of Appellant
Procedure (“Pa.R.A.P.”), when factual evidence is not
in dispute, rule Pa.R.A.P. 2117(a)(4) is applicable to
cite the record; While, when factual evidence is in
dispute, Pa.R.A.P. 2119(cMd) are applicable. That is
the fundamental difference.
30. Petitioner's brief followed Pa.R.A.P. 2117(a)
(4) to cite the record; While, Pennsylvania Superior
Court dismissed the appeal because Petitioner's
argument did not follow Pa.R.A.P. 2119(c)-(d) to cite
the record. The Superior Court's disagreement is
copied from (App. 10a) into the following:
Additionally, throughout the entirety of his
argument section, Appellant fails to cite to the
record. See Pa.R.A.P. 2119(c)-(d). Instead,
claiming his own recitation of the facts was
“verified,” Appellant cites to his own brief
rather than the record on appeal. See, e.g.,
Appellant’s Brief, at 59 (“[I]t has been verified
previously
that
[Appellant]
completely
complied with the Pennsylvania Rule of Civil
Procedure to serve the 10-day notice ... on
Walters. (This Br. pp. 30-31)”)
The Superior Court disagreed that “Appellant's
argument did not conform to Pa.R.A.P. 2119(c)-(d) to

22

cite to the record”, and also had the concern that
Petitioner's argument cited to “his own recitation of
the facts, e.g., the reference (This Br. pp.30'31)”.
31. The Superior court's comment is completely
baseless. First, it is easy to show that the two
conditional
rules
Pa.R.A.P.
2119(c)-(d)
are
inapplicable; Second, citing “his own recitation of
facts” was made according to Pa.R.A.P. 2117(a)(4)
and Pa.R.C.P. 1019(g).
32. Let us see Pa.R.A.P. 2119(c)-(d) are
inapplicable. First, the rule Pa.R.A.P. 2119(d) is as:
(d) Synopsis of evidence. — When the binding of,
or the refusal to find, a fact is argued, the
argument must contain a synopsis of all the
evidence on the point, with a reference to the
place in the record where the evidence may be
found.
The rule 2119(d) is in a when-condition clause,
specifying argument must cite to the record when
factual evidence is in dispute. This rule shall be
applied when a party objects his opponent's evidence
or when a party's evidence is objected by his
opponent or is not admitted, for example, hearsay or
inadmissible for any reasons. The point is plaintiff
and defendants NEVER objected any evidences on
the record. The conditional rule Pa.R.A.P. 2119(d) is
inapplicable. It is a waste of time to deal with
Pennsylvania Superior Court's nonsensical comment.
33. Further, the conditional Rule Pa.R.A.P.
2119(c) is also inapplicable. The rule is as:

23
(c) Reference to record. - If reference is made to
the pleadings, evidence, charge, opinion or order,
or any other matter appearing in the record, the
argument must set forth, in immediate
connection therewith, or in a footnote thereto, a
reference to the place in the record where the
matter referred to appears (see Pa.R.A.P. 2132).
The rule is in a if-condition clause, specifying
argument must set forth a reference to the record
when argument cites to the record. As shown above,
Pa.R.A.P. 2119(d) is inapplicable and argument is
not required to cite to the record. Accordingly, the
conditional rule Pa.R.A.P. 2119(c) is inapplicable.
34. Clearly, the two conditional rules Pa.R.A.P.
2119(c)-(d) are inapplicable. What we have seen is
Pennsylvania Superior Court dismissed the appeal
on the reason that petitioner's brief did not conform
to the two inapplicable rules, e.g., Pa.R.A.P. 2119(c)(d). The point is who has an obligation to comply
with inapplicable laws. People may wonder why
Pennsylvania Superior Court arbitrarily dismissed
Petitioner's appeal by nonsensical comment.
35. Pennsylvania Superior Court also had the
concern that Appellant's brief cited to “his own
recitation of the facts, e.g., the reference (This Br.
pp.30-3l)”, and considered it as a violation to
Pa.R.A.P. 2119(c)-(d) for not citing the record. It has
been shown above that Pa.R.A.P. 2119(c)-(d) are
inapplicable. The Superior Court's comment is
erroneous. Further, the following paragraphs will
show that citing to “his own recitation of the facts”

24
was made according to Pa.R.A.P. 2117(a)(4) and
Pa.R.C.P. 1019(g). People may wonder how
Pennsylvania Superior Court does it's job, even
incapable of comprehending procedural rules.
36. Because plaintiff and defendants NEVER
objected any evidences on the record, Pa.R.A.P.
2117(a)(4) is applicable to cite undisputed facts.
Petitioner shall assert statement of fact in his own
words, which is necessary to prove his argument,
and cites the record to verify his statement. The rule
Pa.R.A.P. 2117(a)(4) is as:
A closely condensed chronological statement, in
narrative form, of all the facts which are
necessary to be known in order to determine
the points in controversy, with an appropriate
reference in each instance to the place in the
record where the evidence substantiating the
fact relied on may be found. See Rule 2132
(references in briefs to the record).
At pages 30-31 of Petitioner's brief, Petitioner
conformed to Pa.R.A.P. 2117(a)(4) to assert the
statement of fact, “Luo completely complied with the
Pennsylvania Rules of Civil Procedure to serve the
10'day notice on Walters”, and cited the record to
verify the statement. The pleading of the statement
of fact, at Petitioner's brief pages 30-31, is copied
into the following:

r

l

Luo completely complied with the
Pennsylvania Rules of Civil Procedure
to serve the 10-day notice on Walters

25
On December 26, 2014 Luo mailed
the Notice of Praecipe to Enter
Judgment by Default (“10'day notice”)
to Walters at the following address:
JAMES R WALTERS
KOLB ROOFING COMPANY
8525 SUMMERDALE AVE
PHILADELPHIA, PA 19152-1141
The USPS tracking number is 9405
5036 9930 0456 1420 32. The USPS
delivered the
10-day notice
on
December 27, 2014 at 1L48AM, in/at
mailbox. (R. 148a-149a) Luo 100%
complied with the rules to serve
Walters the 10'day Notice. See
Pa.R.C.P. 440(b) (“Service by mail of
legal papers other than original process
is complete upon mailing!’)', Pa.R.C.P.
402(a)(2)(i) (“If there is no attorney of
record, service shall be made by
handing a copy to the party or by
mailing a copy to or leaving a copy for
the party at the address endorsed on an
appearance or prior pleading or the
residence or place of business of the
party, or by transmitting a copy by
facsimile as provided by subdivision
(d).”)

Plaintiff paid $5.05 for the mailing
of 10-day notice. (R. 150a)
I

I

Clearly Petitioner conformed to Pa.R.A.P. 2117(a)(4)
to assert the statement of fact “Luo completely

26
complied with the Pennsylvania Rules of Civil
Procedure to serve the 10-day notice on Walters”,
and also cited the records (R. 148a- 149a) and (R.
150a) for a verification.
37. Then, argument can “cite to his own brief’ for
statement of fact. See Pa.R.C.P. 1019(g) (“Any part
of a pleading may be incorporated by reference in
another part of the same pleading........”). Petitioner
totally conformed to rules to make his argument. In
conformity with Rules Pa.R.A.P. 2117(a)(4),
Petitioner asserted statement of fact in his own
words, and cited record to verify his statement;
Then, in conformity with Pa.R.C.P. 1019(g),
Petitioner's argument cited to his own brief for
statement of fact. It is surprised that Pennsylvania
Superior Court wrote the following unintelligent
comment at (App. 10a):
............. Instead, claiming his own recitation of
the facts was “verified,” Appellant cites to his
own brief rather than the record on appeal.
See, e.g, Appellant’s Brief, at 59 (“[I]t has been
verified previously that [Appellant] completely
complied with the Pennsylvania Rule of Civil
Procedure to serve the 10-day notice ... on
Walters. (This Br. pp. 30-31)”)
On contrary to the Superior Court's unintelligent
comment, the statement of fact, “ [I]t has been
verified previously that [Appellant] completely
complied with the Pennsylvania Rule of Civil
Procedure to serve the 10-day notice on Walters ”,
was made according to Pa.R.A.P. 2117(a)(4), and the
reference (This Br. pp. 30-31) was made according to
Pa.R.C.P. 1019(g). Petitioner's argument completely

27

conformed to the rules. It is a waste of time to deal
with Pennsylvania Superior Court's nonsensical
comments. What we have seen is Pennsylvania
Superior Court wrote nonsensical comments to
dismiss Petitioner's appeal. People may wonder how
Pennsylvania Superior Court does it's job.
Pennsylvania Superior Court dismissed the appeal
because judge disagrees 4 of 53 citations of legal
authority
38. Pennsylvania Superior Court also dismissed
the appeal by determining Petition's argument failed
to conform to Pa.R.A.P. 2119(a) for citation of
relevant authorities, for example, the court wrote
“while Appellant’s brief contains numerous
references to case law, it is devoid of references to
relevant case law. See Pa.R.A.P. 2119(a).” (App. 10a)
More specifically, Appellant's argument cites 53
citations of legal authority in five points, and
Pennsylvania Superior Court disagreed 4 of 53 legal
authorities.
39. It never happened before that an appeal was
dismissed because judge disagrees one or some
citations of legal authority. People would wonder
why Pennsylvania Superior Court dismissed the
appeal because judges disagreed 4 of 53 citations of
legal authority.
40. Most terribly, Pennsylvania Superior Court's
disagreement is unreasonable. The Superior Court
determined four legal authorities are irrelevant.
However, according to Black Law (2nd Edition, p.

28

1012), relevancy is “Applying to the matter in
question/ affording something to the purposeA
determination of relevancy should examine the
question. The Superior Court's never examined the
question. That did not determine relevancy, but
made comments of disagreement. In the following,
we can see the four comments of the Superior Court
are nonsensical and unintelligent:
(l) The Superior Court commented a citation at
Appellant's brief at 65 (defining “defense upon
the merif) as “only serves to define legal
concept’. (App. 10a) Such comment is nonsense.
The portion of the argument is as:

r

I

1

Third, Walters asserted “objection”
to
complaint
allegations
as
a
meritorious defense. (This Br. pp.2627) However, objection to factual
allegation is not a meritorious defense.
See Black Law Dictionary, Second
Edition, p.775, (“A 'defense upon the
merits' is one which depends upon the
inherent justice of the defendant's
contention,
as
shown
by
the
substantial facts of the case, as
distinguished from one which rests
upon technical objections or some
collateral matter!’)
I

The definition of meritorious defense is cited to
argue that objection to complaint allegation is
not a meritorious defense. The Superior Court
should determine the question if objection to

29
complaint allegation is a meritorious defense, not
to make a comment. Especially, who could
believe the appeal should be dismissed because
Petitioner
made
the
above
argument?
Pennsylvania Superior Court's conduct is
nonsense!
(2) The Superior Court commented a citation at
Appellant's brief at 61 (“citing Reshard v.
McQueen. 562 So. 2D 811 (Fla. 1st DCA 1990)”))
as “exists outside our jurisdiction”. (App. 10a)
Such comment is unintelligent. The Re shard is
not the only legal authority, cited, in the
argument. The argument also cites U.S.
Supreme Court case, Pennsylvania case, and
Florida case to show the courts made consistent
rulings. The portion of argument is as^

r

l

First, the trial court erred in the
ruling that default judgment was
nullified after filing the second
amended complaint. Indeed, the
second amended complaint superseded
the original complaint. However,
default judgment, a final judgment,
cannot be nullified or destroyed. E.g.,
see Kessler v. Eldred. 206 U.S. 285
(1907) (“Rights between litigants once
established by the final judgment of a
court of competent jurisdiction must
be recognized in every way, and
wherever the judgment is entitled to
respect, by those who are bound
thereby.”)', Albert Einstein Medical
Center v. Forman. 212 Pa. Super. 450,

30
452, 243 A.2d 181 (1968) (“Once a
judgment has been entered, it is
ordinarily
conclusive”).
It
was
erroneous for the trial court to rule the
default judgment was nullified when
filing the second amended complaint.
It is certain that default judgment
could not be nullified by filing an
amended complaint. For an example
in Florida state, in the case Reshard v.
McQueen. 562 So. 2D 811 (Fla. 1st
DCA 1990), appellant presents only
one argument “the default entered
against him was nullified by the filing
of an amended complaint on the day
following the default.” Id. @812. The
Florida court disagreed the appellant's
argument, and notes “We are unable
in these circumstances to conclude
that the amended complaint should be
accorded the effect appellant argued’
Id. @813. Default judgment could not
be nullified by filing an amended
complaint. Also see 47 Am. Jur. 2d
Judgm en ts, Section 1175- "(fTjhe
general rule is that, on a default, the
complaint is to be leniently construed
and every reasonable inference
indulged to support a cause of action.
Hence, a judgment rendered upon
default will not be held void ...
provided
its
direct
averments
necessarily imply or reasonably
require an inference of the facts

31
necessary to supply the defense.")
I

I

Even if the Superior Court rejected the citation
of Florida case, there are other citations.
Especially, has anyone heard that an appeal
should be dismissed if appellant cites a case of
another state? Pennsylvania Superior Court is
outrageous. What Pennsylvania Superior Court
should do is to rule if default judgment is
nullified after filing the second amended
complaint, not to make nonsensical comment.(3) The Superior Court commented a citation at
Appellant's brief at 62 getting Frow v. De La
Vega. 82 U.S. 552 (1872) for proposition that
defaulting defendant could not defend a second
amended complaintin fact, Frow does not
contemplate a second amended complaint)” as
“are entirely widely inaccurate statements of the
law!’. (App. 10a) Pennsylvania Superior Court's
comment is unintelligent. The portion of the
argument is as:
1

I

Second, the trial court also
committed another legal error that the
second amended complaint named
James R. Walters a co-defendant such
that Walters could defend the second
amended complaint, e.g., filing a
preliminary objection. Because the
court did not order to amend the
caption, that's why Walters is on the
caption as a defendant. However, that
does not mean Walters could defend
the second amended complaint,

32
because Walters was a “defaulting
defendant’, not an “active defendant’.
A defaulting defendant (e.g., Walters)
could not defend the second amended
complaint. For example, see Frow v.
De La Vega. 82 U.S. 552 (1872) (“The
defaulting defendant has lost his
standing in court. He will not be
entitled to service of notices in the
cause, nor to appear in it in any way.
He can adduce no evidence, he cannot
be heard at the final hearing.”). It was
erroneous for the trial court to rule
that Walters was named as a co­
defendant in the second amended
complaint such that he could defend
the second amended complaint, e.g.,
filing a preliminary objection.
I

I

The Superior Court's comment is unintelligent.
According to Frow. Waters “cannot be heard’ and
“will not appeaf’. It is correct that Walters
cannot defend the second amended complaint.
The Superior Court is a nonsensical court.
What the Superior Court should do is to rule if
Walters could defend the second amended
complaint, not to make nonsensical comment.
Especially, who could believe the appeal should
be dismissed because Petitioner made the above
argument? The Superior Court is outrageous!
(4) The Superior Court commented a citation at
Appellant’s Brief at 59-60 (“citing law relating to
a petition to strike in support of his argument
that the trial court erred in granting Walters’s

33

petition to open’) as “do not support the legal
positions Appellant has taken in his brief.
(App.lla)
Pennsylvania
Superior
Court's
comment is unintelligent. The portion of the
argument is as:

r

1

First,
it has been verified
previously that Luo
completely
complied with the Pennsylvania Rules
of Civil Procedure to serve the 10-day
notice (e.g., Notice of Praecipe to
Enter Judgment by Default) on
Walters. (This Br. pp.30-31) According
to precedents, Walters' contention,
which he did not receive the 10-day
notice, could not open a default
judgment. For example, in Wells
Fargo Bank. N.A. v. Vanmeter. 2013
PA Super 115, 67 A.3d 14 (2013), the
Superior court affirmed “trial court's
denial of a petition ............... despite
appellant's contention that it did not
actually receive ten day notice of
plaintiffs intent to praecipe for entry
of default judgment (citing Central
Penn National Bank v. Williams. 362
Pa. Super. 229, 523 A.2d 1166, 11681169 (1987))” Especially, see the
supreme court holding in Central
Penn National Bank v. Williams at
231:
“The trial court found that actual
receipt of the notice by defendant
is unnecessary and that mailing

34

L

the notice to an address known
to be defendant's principal
residence is sufficient. We agree
and therefore affirm the order of
the trial court.”
The trial court's ruling contravened
the Pennsylvania Supreme court
holding. Especially, it has been
verified previously that Walters has a
pattern of baseless denial. (This Br.
p.30)
j

The Superior Court's comment is unintelligent.
First, the citation Central Penn National Bank
held “actual receipt of the notice by defendant is
unnecessary.” The civil rule for services is
applied to all civil actions, regardless the cause
of action! Second, the court's comment is factual
incorrect. The Central reviewed a petition to
open and/or strike default judgment, whose
purpose is identical to Walters' petition to open
and/or strike default judgment. The Superior
Court just wrote nonsense to dismiss the appeal.
Especially, who could believe that the appeal
should be dismissed because Petitioner made the
above argument? The Superior Court is
outrageous.
41. What we have seen is Pennsylvania Superior
Court wrote four nonsensical comments to dismiss
Petitioner's appeal. People would wonder why
Pennsylvania Superior Court arbitrarily dismissed
Petitioner's appeal and treated Petitioner so grossly
unjust and unfairly.

35

Pennsylvania Superior Court's decision also
differs from other appellant courts
42. Pennsylvania Superior Court dismissed the
appeal by determining appellant's brief is defective
in rule compliance.
43. Pennsylvania state has two immediate
appellate courts. The other immediate appellate
court is the Pennsylvania Commonwealth court.
Pennsylvania Commonwealth Court does not dismiss
an appeal if appellant brief is found defective, but
rejects defective brief and orders appellant to refile a
proper brief, and appeal is not dismissed unless
appellant fails to cure deficiencies. For example, in
the Pennsylvania Commonwealth court case, 563 CD
2018, the court rejected a defective brief on
7/30/2018:
It is ordered‘ 1. Petitioner's brief is not
accepted. 2. Petitioner shall file and serve an
amended brief (4 copies) that conforms to the
requirements of Chapters 1 and 21 of the
Pennsylvania Rules of Appellate Procedure on
or before August 10, 2018, or this case will be
dismissed as of course. 3. Respondent's brief
shall be due, if at all, 30 days after service of
petitioner's amended brief
Pennsylvania Commonwealth Court gives appellant
an opportunity to cure deficiencies! While,
Pennsylvania Superior Court did not give Petitioner
an opportunity to cure the deficiencies. Pennsylvania
Superior Court's decision differs from Pennsylvania

36
Commonwealth Court.
44. Further, Pennsylvania Superior Court's
decision also differs from federal appellate courts.
When appellant's brief is found defective, federal
appellate courts reject the defective brief, and order
appellant to refile a proper brief, and appeal is not
dismissed unless appellant fails to do so. For
example, in the Third Circuit (also in Pennsylvania),
the Local Appellate Rule 107.3 is as
“If a motion, brief or appendix submitted for
filing does not comply with FRAP 27 * 32 or
3d Cir. L.A.R. 27.0 - 32.0, the clerk will file
the document, but notify the party of the
need to promptly correct the deficiency. The
clerk will also cite this rule and indicate to
the defaulting party how he or she failed to
comply.
If the court finds that the
party continues not to be in compliance with
the rules despite the notice by the clerk, the
court may, in its discretion, impose sanctions
as it may deem appropriate, including but
not limited to the dismissal of the appeal, ...

... r)

The Third Circuit does not dismiss an appeal when
appellant's brief is found defective.
45. Pennsylvania Superior Court's decision,
which dismissed the appeal without giving appellant
an opportunity to cure deficiencies, differs from other
appellate courts. This Court shall have a review and
resolve the difference.

37
REASONS FOR GRANTING THE PETITION

A. Pennsylvania Superior Court's judgment in
dismissing the appeal offends interests of
society, and conflicts with this Court's
published opinion. This Court shall fulfill it's
promise of reviewing the Pennsylvania
Superior Court's judgment and establishes a
guideline to prevent appellate courts from
arbitrarily dismissing an appeal
This petition is not only for a question of ethic
why Pennsylvania Superior Court dismissed
Petitioner's appeal by nonsensical comments.
Further, whether Pennsylvania Superior Court could
dismiss
petitioner's
appeal
by
the
three
disagreements'(1) three-judge panel disagrees the number of
argument points;
(2) Petitioner's brief does not conform to two
inapplicable rules!
(3) the three-judge panel disagreed 4 of 53 citations
of legal authority.
is also a question for review.
According to this Court's published opinions,
Pennsylvania Superior Court's conduct raises a
federal question, due process of laws. In Rochin v.
California. 342 U.S. 165, 172 (1952), this Court has
the following opinion:
In each case, "due process of law" requires an
evaluation based on a disinterested inquiry

38
pursued in the spirit of science, on a balanced
order of facts exactly and fairly stated, on the
detached consideration of conflicting claims,
on a judgment not ad hoc and episodic, but
duly mindful of reconciling the needs both of
continuity and of change in a progressive
society.
Applying this Court's opinion to this case, it could be
seen that Pennsylvania Superior Court's conduct
offends interests of society.
Indeed, judge may disagree the number of
argument points. However, the legal community
never witnessed or expect that an appeal could be
dismissed because judge disagrees the number of
argument points; Further, no one has an obligation
to comply with inapplicable laws. The legal
community also never witnessed or expect that an
appeal could be dismissed because appellant did not
comply with inapplicable rules! Further, it is also
nothing uncommon that judge may disagree one or
some citations of legal authority. However, the legal
community also never witnessed or expect that an
appeal could be dismissed if judge disagrees a or
some citations of legal authority.
Clearly,
Pennsylvania Superior Court's judgment in
dismissing Petitioner's appeal offends “traditions
and conscience of our people”. That shocks the
conscience, a violation of due process of laws.
Since 1789 when the judicial branch began to
take shape, it has been 230 years. No other appellate
courts arbitrarily dismissed an appeal on any of the
following reasons: (l) judge disagrees the number of

39
argument points, (2) appellant's brief does not
conform to inapplicable rules, (3) judge disagrees 4 of
53 appellant's citations of legal authority. Petitioner
is the only victim in 230 years, whose appeal was
arbitrarily dismissed so grossly unjust and brutally.
Pennsylvania Superior Court's conduct offends
interests of society. This Court has a promised duty
of reviewing a lower court's conduct when the lower
court offends interest of society. See Id @171 (“The
Due Process Clause places upon this Court the duty
of exercising a judgment, within the narrow confines
of judicial power in reviewing
[Pennsylvania
Superior Court's decision], upon interests of society
pushing in opposite directions.”) This Court shall
fulfill with the promised duty of reviewing
Pennsylvania Superior Court's decision and
establishes a guideline to prevent appellate courts
from arbitrarily dismissing an appeal.
B. This petition presents a perfect vehicle to
resolve appellate court's split on the ruling
when appellant's brief is found defective
35-36),
As
shown above
(f 1(42*45,
pp.
Pennsylvania Superior Court's decision differs from
other appellate courts. When Petitioner's brief is
found defective, the Superior Court dismissed
Petitioner's appeal without giving Petitioner an
opportunity to cure the deficiencies! While, other
appellate courts give appellants an opportunity to
cure the deficiencies when appellant's brief is found
defective. There is an acknowledged split among
appellate courts. This case presents the perfect

40

vehicle to resolve the appellate split, to avoid further
deviating decisions on this issue.
However, it appears that Pennsylvania Superior
Court's decision is incorrect, in conflict with several
published opinions of this Court. First, this Court
has held defective pleading is not decisive to the
outcome. See Conlev v. Gibson. 355 U.S. 41,48 (1957)
(The courts “reject the approach that pleading is a
game of skill in which one misstep by counsel may
be decisive to the outcome, and accept the principle
that the purpose of pleading is to facilitate a proper
decision on the merits.”). Apparently Pennsylvania
Superior Court conflicts with this Court's published
opinion, and dismissed the appeal by determining
Petitioner's brief is defective! Second, this Court also
held that, in the absence of any justifying reason,
Pennsylvania Superior Court must give petitioner an
opportunity to cure deficiencies. See Foman v. Davis.
371 U.S. 178, 182 (1962) (“ [T]he grant or denial of an
opportunity to amend is within the discretion of the
[Pennsylvania Superior Court], but outright refusal
to grant the leave without any justifying reason
appearing for the denial is not an exercise of
discretionit is merely abuse of that discretion.”) The
point is that after filing a notice of appeal, appellant
just follows scheduling order to file a brief. No
justifying reasons could possibly exist, e.g., undue
delay or opponent is prejudiced. Because of no
justifying reasons, appellate court shall give
appellant an opportunity to cure the deficiencies.
Apparently, it is erroneous for Pennsylvania
Superior Court to dismiss the appeal without giving
Petitioner an opportunity to cure his defective brief.

41

There is an acknowledged split among appellate
courts. This case presents the perfect vehicle to
resolve the appellate split, to avoid further deviating
decisions on this issue.
C. The appeal has not been reviewed on the
merits. Pennsylvania Superior Court's
conduct conflicts with a tradition of this Court
that mere technicalities should not stand in
the way of deciding a case on the merits
Review is warranted. Even if we assume
Petitioner's brief is defective, this Court has a
tradition to review an appeal on the merits. Torres v.
Oakland Scavenger Co.. 487 U.S. 312, 316 (1988) (“
'mere technicalities' should not stand in the way of
consideration of a case on its merits.”) Especially,
the appeal has been briefed. Pennsylvania Superior
Court should not refuse to review the appeal on the
merits.
Further, the facts and circumstances are clear. It
could be certain that, after a review on the merits,
the trial court judgment shall be vacated:
(1) As shown above (ff 10-12, pp.7'9), the
arbitration award contravenes public policies. It
is 100% certain that, after a review on the merit,
the trial court order (App. 12a), which confirmed
the award, shall be vacated;
(2) As shown above (f^f 13-15, pp. 9-11), the trial
court erred in denying Petitioner's right to jury
trial by compelling Petitioner to arbitration. It is
also 100% certain that, after a review on the

42
merit, the trial court order (App. 12a), which
confirmed the arbitration award, shall be
vacated because the trial court erred in denying
petitioner's right to jury trial;
(3) As shown above (^[16-18, pp.12-13), the trial
court erred in accepting Walters' petition to open
the default judgment, because there is an
injunction order, which barred Walters from
filing the petition to open default judgment.
Further, Walters failed to prove trial court's
error was harmless. A review on the merit may
vacate the trial court order (App. 18a), which
granted Walters' petition to open default
judgment;
(4) As shown above (^[19-23, pp.13-15), Lowe's and
Ernest self-determined to stay the arbitration.
Self-determination is not a “form of laws”, in
violation of due process of laws. Further, before a
stay of the arbitration, procedural due process
entitled Petitioner to be given a notice and an
opportunity to be heard. Lowe's and Ernest's
self-determination also violated Petitioner's right
to procedural due process. The delayed
arbitration, provided by Lowe's and Ernest, is
unconstitutional, inoperative, and should be
banned. A review on the merits may reverse the
trial court order (App. 16a) that denied Petition's
motion to enter default judgment against Lowe's
and Ernest.
Facts and circumstances are clear. After a review on
the merit, it is 100% certain that the trial court
judgment shall be vacated. Under this circumstance,
this Court has held in a similar situation that

43

Petitioner should be offered an opportunity to test
his appeal on the merit. See Foman v. Davis. 371
U.S. 178, 182 (1962) (“If the underlying facts or
circumstances relied upon by a plaintiff may be a
proper subject of relief he ought to be afforded an
opportunity to test his claim on the merits.”)
Petitioner should be offered an opportunity to have
his appeal reviewed on the merits.

CONCLUSION
The petition for a writ of certiorari should be
granted.

Respectfully submitted,

Date: Nov. 20, 2019 JENN-CHING LUO
Pro Se
PO Box 261
Birchrunville, PA 19421
JENNCHINGLUO@GMAIL.COM

